<html>
<title> - A REVIEW OF THE DEPARTMENT OF HOMELAND SECURITY'S POLICIES AND PROCEDURES FOR THE APPREHENSION, DETENTION, AND RE- LEASE OF NONCITIZENS UNLAWFULLY PRESENT IN THE UNITED STATES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                 A REVIEW OF THE DEPARTMENT OF HOMELAND 
                   SECURITY'S POLICIES AND PROCEDURES FOR 
                   THE APPREHENSION, DETENTION, AND RE-
                   LEASE OF NONCITIZENS UNLAWFULLY PRESENT 
                   IN THE UNITED STATES

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                           NATIONAL SECURITY

                                AND THE

                 SUBCOMMITTEE ON HEALTH CARE, BENEFITS,
                       AND ADMINISTRATIVE RULES,

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 25, 2015

                               __________

                            Serial No. 114-3

                               __________

Printed for the use of the Committee on Oversight and Government Reform

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                                ___________
                                
                                
                           U.S. GOVERNMENT PUBLISHING OFFICE
93-690 PDF                     WASHINGTON : 2015                           
                      
_______________________________________________________________________________________       
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="aacddac5eac9dfd9dec2cfc6da84c9c5c784">[email&#160;protected]</a>  
               
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
     Art Arthur, Staff Director, Subcommittee on National Security
 Sean Hayes, Staff Director, Subcommittee on Healthcare, Benefits, and 
                          Administrative Rules
                           Sarah Vance, Clerk
                   Subcommittee on National Security

                    RON DeSANTIS, Florida, Chairman
JOHN L. MICA, Florida                STEPHEN F. LYNCH, Massachusetts, 
JOHN J. DUNCAN, JR. Tennessee            Ranking Member
JODY B. HICE, Georgia                TED LIEU, California
STEVE RUSSELL, Oklahoma, Vice Chair  ROBIN L. KELLY, Illinois
WILL HURD, Texas                     BRENDA L. LAWRENCE, Michigan

     Subcommittee on Health Care, Benefits and Administrative Rules

                       JIM JORDAN, Ohio, Chairman
TIM WALBERG, Michigan,               MATT CARTWRIGHT, Pennsylvania, 
SCOTT DesJARLAIS, Tennessee              Ranking Member
TREY GOWDY, South Carolina           ELEANOR HOLMES NORTON, Distict of 
CYNTHIA M. LUMMIS, Wyoming               Columbia
MARK MEADOWS, North Carolina         BONNIE WATSON COLEMAN, New Jersey
RON DeSANTIS, Florida                MARK DeSAULNIER, California
MICK MULVANEY, South Carolina, Vice  BRENDAN F. BOYLE, Pennsylvania
    Chair                            MICHELLE LUJAN GRISHAM, New Mexico
MARK WALKER, North Carolina          Vacancy
JODY B. HICE, Georgia
EARL L. ``BUDDY'' CARTER, Georgia
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 25, 2015................................     1

                               WITNESSES

Mr. Scott R. Jones, Sheriff, Sacramento County Sheriff's 
  Department
    Oral Statement...............................................     8
    Written Statement............................................    11
Mr. Jamiel Shaw, Sr., Father of Jamiel Shaw II
    Oral Statement...............................................    20
    Written Statement............................................    22
Mr. Michael Ronnebeck, Uncle of Grant Ronnebeck
    Oral Statement...............................................    33
    Written Statement............................................    35
Ms. Jessica M. Vaughan, Director of Policy Studies, Center for 
  Immigration Studies
    Oral Statement...............................................    40
    Written Statement............................................    42
Mr. Gregory Z. Chen, Director of Advocacy, American Immigration 
  Lawyers Association
    Oral Statement...............................................    53
    Written Statement............................................    55

                                APPENDIX

Letters to Jeh Johnson, Secretary, U.S. Dept. of Homeland 
  Security.......................................................    88
Letters to The Hon. Ron DeSantis, Chairman, Subcommittee on 
  National Security..............................................    91
Letter to The Hon. Charles E. Grassley, Ranking Member, Committee 
  on the Judiciary...............................................    94
Migration Policy Institute report titled ``Deportation and 
  Discretion: Reviewing the Record and Options for Change'' 
  website listed.................................................    99
Migration Policy Institute report titled ``Immigration 
  Enforcement in the U.S.: The Rise of a Formidable Machinery,'' 
  website listed.................................................   100
Letter from Marc R. Rosenblum, Migration Policy Institute........   101
May 2013 University of Illinois at Chicago report titled 
  ``Insecure Communities: Latino Perceptions of Police 
  Involvement in Immigration Enforcement,'' website listed.......   107


    A REVIEW OF THE DEPARTMENT OF HOMELAND SECURITY'S POLICIES AND 
PROCEDURES FOR THE APPREHENSION, DETENTION, AND RELEASE OF NONCITIZENS 
                UNLAWFULLY PRESENT IN THE UNITED STATES

                              ----------                              


                      Wednesday, February 25, 2015

                  House of Representatives,
 Subcommittee on National Security, joint with the 
        Subcommittee on Health Care, Benefits, and 
                              Administrative Rules,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 10:04 a.m., 
in room 2154, Rayburn House Office Building, Hon. Ron DeSantis 
[chairman of the Subcommittee on National Security] presiding.
    Present from the Subcommittee on National Security: 
Representatives DeSantis, Mica, Hice, Russell, Lynch, and Lieu.
    Present from the Subcommittee on Health Care, Benefits, and 
Administrative Rules: Representatives Jordan, Walberg, 
DesJarlais, Meadows, DeSantis, Walker, Hice, Carter, 
Cartwright, Norton, Watson Coleman, and Cooper.
    Also present: Representatives Salmon and Lujan Grisham.
    Mr. DeSantis. The subcommittee will come to order.
    Without objection, the chair is authorized to declare a 
recess at any time.
    The American people have every right to expect the 
government to abide by the laws of the land, especially those 
laws that impose duty on government officials to protect the 
safety and security of the American people. The Nation's 
immigration laws both recognize the valuable contribution 
illegal immigrants make to American society and provide a 
framework to safeguard the Nation's sovereignty and the public 
safety.
    The U.S. Government has a responsibility to execute the 
laws of the land, yet today's hearing will demonstrate that the 
Federal Government is failing to enforce the laws that protect 
the public safety.
    The attacks of September 11, 2011, tragically demonstrated 
the importance of our immigration laws in protecting the 
American people. The staff report of the 9/11 Commission on 
Terrorist Travel found that, ``every hijacker submitted a visa 
application,'' containing false Statements; that, ``at least 2 
hijackers and as many as 11 of the hijackers presented to INS 
inspectors at ports of entry passports manipulated in a 
fraudulent manner''; and that two of the hijackers overstayed 
the terms of their admission.
    The 9/11 attacks were an act of war against our country by 
a terrorist group who exploited the lack of enforcement of our 
immigration system in service of their murderous ends.
    Today, we will hear from Jamiel Shaw, Sr., whose son, 
Jamiel II, was murdered by a gang member who was in the country 
illegally on March 2, 2008. The murderer had a long criminal 
history and was facing pending felony charges, yet he was 
released into American society a mere 2 days before he killed 
Jamiel Shaw II.
    As a high school football player, Jamiel II received 
interest from schools such as Stanford and Rutgers. As his dad 
will testify, he was a good kid who was trying to pursue his 
dreams and make something of himself. The tragic fact is this: 
Had the government simply fulfilled its responsibility to 
protect the public and faithfully executed the law, Jamiel Shaw 
II would be alive today.
    The government's failures to safeguard the public appear to 
have grown more severe since the murder of Jamiel Shaw II. For 
example, in 2013 the Department of Homeland Security freed 
36,007 convicted criminal aliens from detention. According to 
the Center for Immigration Studies, this group included aliens 
convicted of hundreds of violent and serious crimes, including 
homicide, sexual assault, kidnapping, and aggravated assault.
    The vast majority of these releases from custody were 
discretionary, not required by law and, in fact, in some 
instances, apparently contrary to law. Nor were they the result 
of local sanctuary policies.
    Unfortunately, since 2013, 1,000 of these same released 
criminal convicts had been convicted yet again for additional 
offenses. In other words, people have been victimized because 
the government has failed to repatriate these criminal convicts 
to their home countries, as provided for under the law.
    Concerns about Immigration and Customs Enforcement's 
effective use of its resources to protect the American people 
have been intensified by the DHS November 20, 2014, guidance on 
the apprehension, detention, and removal of illegal immigrants 
present in the United States. In that guidance, the Department 
appropriately designated aliens who pose a danger to the 
national security and who have been convicted of aggregated 
felonies as the highest priority for removal. Even that 
designation, though, contains significant caveats that could 
allow such aliens to remain at large in the United States and 
to continue their criminal activities.
    Of equal concern is the fact that the Department has 
identified as a lesser priority for apprehension, detention, 
and removal other criminal aliens, including aliens who have 
been convicted of what the agency has categorized as the, 
``significant misdemeanors'' of domestic violence, sexual abuse 
or exploitation, burglary, firearm offenses, and drug 
distribution or trafficking.
    The subcommittee will examine how effective the Department 
of Homeland Security has been in using its resources and 
authority to identify, apprehend, detain, and remove aliens who 
pose a danger to the people of the United States and the 
ramifications of the Department's newly adopted policy in 
fulfilling this crucial obligation.
    I look forward to hearing from our witnesses today. I thank 
them for their time, and, in advance, I thank them for their 
testimony.
    And I will now recognize my colleague from Massachusetts, 
the ranking member, Mr. Lynch, for 5 minutes.
    Mr. Lynch. Thank you very much, Mr. Chairman. I want to 
thank you for holding this hearing, joint hearing.
    And I want to thank our witnesses for being with us this 
morning and helping the committee with its work.
    Let me begin by expressing my sincere sorrow to the 
families of Jamiel Shaw and Grant Ronnebeck for the loss of 
their loved ones. Jamiel's father, Mr. Jamiel Shaw, Sr., and 
Grant's uncle, Mr. Mike Ronnebeck, are here with us today.
    And I would like to thank you both for helping the 
committee work through our issues here with this law and as we 
examine the Department of Homeland Security's revised 
immigration enforcement policies and procedures. And I thank 
you, as well, for your willingness and your strength in trying 
to turn your personal tragedy into something positive as a way 
of honoring your son and your nephew.
    Just for the record, I want to indicate that I am a 
cosponsor of the Jamiel Shaw Act that Mr. Walter Jones of North 
Carolina has recently filed in memory of your son and that 
would require notification by the FBI of any crimes committed 
by undocumented workers, any individual not in this country 
legally.
    Importantly, the department-wide memo issued by Department 
of Homeland Security Secretary Jeh Johnson in November 2014 
provides enhanced guidance for those Federal agencies 
responsible for carrying out immigration enforcement and 
removal activities by specifying and prioritizing threats to 
our national security, public safety, and border security, 
including persons convicted of criminal street gang activity 
and other felonies. The Department is now seeking to better 
ensure that its limited resources are dedicated to addressing 
the most serious law enforcement cases for the benefit and 
safety of the American people.
    I understand that there are many inside and outside of 
government who continue to raise concerns over the 
effectiveness of the Department of Homeland Security's 
enforcement efforts. In fact, the underlying premise of today's 
hearing appears to be, in part, the premise that the 700,000-
plus employees of the Department of Homeland Security, 
including U.S. Immigration and Customs Enforcement, are not 
enforcing our immigration laws. I do not believe that that is 
the case.
    Just to be clear, the Department of Homeland Security has 
detained and removed more people since 2008 than during any 
other period in its history. According to the Migration Policy 
Institute, approximately 1.95 million people were removed 
between 2008 and 2013, which is about the same number removed 
during the entire 8 years during the Bush Administration.
    In addition, the administration continues to focus 
resources on targeting immigrants who are criminals, threats to 
national security, and public safety risks. Eighty-five percent 
of the Immigration and Customs Enforcement removals from the 
United States in Fiscal Year 2014 were convicted criminals. So 
that is 85 percent of the removals were of illegal aliens who 
were criminals.
    So, while I have my own questions and concerns regarding 
our enforcement policy, I cannot agree that the laws are not at 
all being enforced. The facts show that they indeed are.
    I think it is important that we also understand that 
current law requires detainees who have served their time be 
released. Based on what I have read, it appears that most of 
the detainees released by the Department in Fiscal Year 2013 
were released as required by the 2001 Supreme Court decision in 
Zadvydas v. Davis or other mandatory laws.
    Notably, the Zadvydas case found that the indefinite 
detention of a noncitizen who has been ordered removed but 
whose removal is not likely to occur in the reasonably 
foreseeable future raises serious constitutional due process 
concerns.
    The Department also released some detainees either due to 
eligibility for bond, pursuant to section 236 of the 
Immigration and Nationality Act, or for reasons as deteriorated 
health or advanced age.
    In light of these legal and constitutional issues, I very 
much welcome the opportunity to hear from Department of 
Homeland Security today. However, it is my understanding that 
the Department was invited to testify only 3 days ago, which I 
do not believe constitutes adequate notice for a congressional 
hearing. I must also mention that the DHS has indicated its 
willingness to work with our committee and testify on this 
topic in early March.
    And, moreover, we should remember that Department of 
Homeland Security is currently less than 2 days away from a 
full agency shutdown. While I strongly believe that Congress 
must serve an important role in debating and shaping our 
Nation's immigration policy, we should not be holding our 
Homeland Security funding hostage. We should not be threatening 
to furlough approximately 30,000 Department of Homeland 
Security employees, and we shouldn't be risking the much-needed 
funding for the very law enforcement efforts that we are 
seeking to secure here.
    This is especially true at a time when the Department and 
its more than 240,000 dedicated employees continue to remain on 
high alert amidst the threat of international terrorism, 
increased cyber attacks on our Nation's government and private 
institutions, and natural disasters and emergencies.
    Mr. Chairman, again, I thank you for holding this hearing. 
I look forward to hearing from our witnesses today and hearing 
from the Department in the near future as we review our 
national immigration enforcement policies. And I also look 
forward to working with you in a bipartisan manner as we 
examine key policy issues relating to our national security.
    Thank you, Mr. Chairman. I yield back.
    Mr. DeSantis. The gentleman yields back.
    I ask unanimous consent that our colleague from the Fifth 
District of Arizona, Congressman Matt Salmon, be allowed to 
fully participate in today's hearing.
    Mr. Lynch. No objection.
    Mr. DeSantis. Without objection, so ordered.
    I now recognize Mr. Jordan, chairman of the Subcommittee on 
Health Care, Benefits, and Administrative Rules, for his 
opening Statement.
    Mr. Jordan. I thank the chairman for having this hearing, 
and I will try to be brief.
    And I want to thank our witnesses, in particular Mr. Shaw 
and Mr. Ronnebeck, for being here today and, as family members, 
what they have had to go through.
    We appreciate you coming forward.
    Look, we are having an important debate here in Congress 
regarding the Department of Homeland Security. And the debate 
centers around--and Mr. Lynch touched on this at the close of 
his remarks--centers around the unconstitutional actions of 
this President last November.
    And so many people know what he did was unconstitutional. 
We don't have to take conservative or Republican--we have all 
kinds of legal scholars, both liberal and conservative, who say 
it is unconstitutional. And now we have a Federal judge who 
says it is unlawful.
    And yet we invited the Secretary of the Department of 
Homeland Security to come and testify today, and in the midst 
of all this and people like Mr. Shaw and Mr. Ronnebeck coming 
here to testify, Secretary Johnson said he couldn't make it. 
And he couldn't even send a designee.
    Now, you would think, with this debate being as big as it 
is, the Department could at least come to Congress this week 
and testify. I have seen Mr. Johnson on TV every day for the 
last week and a half, yet he can't make it to a committee in 
front of Congress with this panel? It is ridiculous, just 
ridiculous.
    So I appreciate this hearing, but the frustrating part is 
we don't have the Department here to answer all kinds of 
important questions--an important question like this: How can 
Congress fund something we all believe is unconstitutional and 
a Federal judge has said is unlawful? How can we do that? But 
yet that is the position the other side wants to take.
    Mr. Lynch just used the term ``hold hostage'' the DHS 
funding. We are not holding anything hostage. We are upholding 
the Constitution, and we are funding the Department of Homeland 
Security. That is the bill that passed. That is the commonsense 
bill that passed the House of Representatives.
    And yet Secretary Johnson is unwilling to come to the 
committee today and answer our questions. It makes no sense. He 
can go on TV and talk about it all--he was on every single show 
this weekend, but he can't come here in front of Congress, take 
a few minutes of his time to maybe answer questions that 
families who are here have. He can't do it. Can't do it.
    So I appreciate the chairman having this hearing, but it 
would have been better if the Department of Homeland Security 
would have had the courage to come here today and answer not 
just our questions but the questions the American people have 
about this important issue on this important date during this 
important debate.
    With that, I yield back, Mr. Chairman.
    Mr. DeSantis. The gentleman yields back.
    And the chair will now recognize the ranking member of the 
Subcommittee on Health Care, Benefits, and Administrative 
Rules, Mr. Cartwright, for his opening Statement.
    Mr. Cartwright. Thank you, Mr. Chairman.
    And I also thank the witnesses for coming today.
    And I want to join my colleagues today in thanking you, 
particularly, Mr. Shaw and Mr. Ronnebeck, and expressing my 
deepest condolences for your loss and the loss of your 
families.
    Let me begin by saying I just returned from the Texas-
Mexico border last week, where I visited both the Pharr-Reynosa 
International Bridge and also the Donna International Bridge in 
south Texas. I was with Commissioner of U.S. Customs and Border 
Protection Gil Kerlikowske and also Edward Avalos, the Under 
Secretary for Marketing and Regulatory Programs at the United 
States Department of Agriculture. I met with individuals from 
CBP, Customs and Border Protection, who work tirelessly to 
ensure that our international border is secure.
    During the trip, what I witnessed was how vitally important 
our trade relationship with Mexico is. My own State of 
Pennsylvania exports $3.44 billion worth of goods to Mexico 
every year, accounting for almost a quarter-million jobs. 
Chemical exports make up our top export sector in Pennsylvania, 
accounting for $868 million a year and fully 25 percent of the 
State's total exports to Mexico. In addition, another $632 
million in primary metal manufacturers are exported to Mexico.
    I spent some time on South Main Street in McAllen, Texas, 
where I saw block upon block of thriving stores catering to 
Mexican nationals who come across the border to the U.S. to do 
their shopping and then they return home to Mexico.
    Our working relationship with Mexico is enormously 
important to our safety and our economic security, and, as I 
saw last week, DHS's work is vital to that mission. In fact, 
the men and women of DHS do more than secure our border from 
undocumented immigrants; they also inspect our imported fruits 
and vegetables--I saw this--so as to prevent harmful insects 
from infecting the crops in our country.
    Without their important work, our agricultural industry 
could stand to lose billions and billions of dollars. Mexico is 
the largest supplier for fresh and frozen fruit to the U.S. It 
accounts for over 30 percent of the volume and the value of 
fresh and frozen fruit imports. These men and women at DHS are 
integral to keeping our food supply safe.
    My trip also confirmed that the administration is shifting 
resources to the border to strengthen enforcement efforts. The 
administration has been sending hundreds of additional Border 
Patrol and Immigration and Customs Enforcement, ICE, agents to 
the border and increasing ground surveillance systems. I spent 
time in one of the booths where they interview people coming 
across the border, and I saw the technology at work there.
    According to the DHS data, the number of Border Patrol 
agents increased from 17,499 in 2008 to fully 21,391 at the end 
of 2013. In addition, in Fiscal Year 2014, DHS conducted 
414,000 removals and 162,000 returns. CBP made 486,000 
apprehensions.
    I appreciate today's hearing to examine the President's 
priorities outlined in the November 20 memorandum. It seems to 
me the President is enforcing our laws and focusing his limited 
resources on targeting immigrants who are criminals, threats to 
national security, and public safety risks.
    ICE only has the capability of removing 400,000 illegal 
immigrants per year, just 4 percent of the total illegal 
immigrant population. Given these limited resources, it is very 
important that we spend the money wisely.
    I am, however, troubled by this hypocritical effort of some 
of my colleagues who are threatening to hold the DHS funding 
bill hostage--that is an apt expression--unless it defunds the 
President's immigration actions. It is exactly the type of 
Washington politics the American people are tired of. The 
American people sent us here to pass laws, to work together to 
solve problems, not to defund enforcement efforts at our 
border.
    In our district, in addition, in northeastern Pennsylvania, 
our fire companies rely heavily on fire grants to provide much-
needed safety and firefighting capability. That will be stopped 
if DHS funding is stopped and there is a DHS shutdown. That is 
ridiculous, and it is counterproductive.
    I also have questions about some of the President's 
actions, but I will not support these destructive efforts by my 
colleagues.
    And, with that, I yield back, Mr. Chairman.
    Mr. DeSantis. Thank you.
    I will hold the record open for 5 legislative days for any 
Members who would like to submit a written Statement.
    We will now recognize our panel of witnesses. I am pleased 
to welcome Mr. Scott Jones, Sheriff, Sacramento, California, 
County Sheriff's Department; Mr. Jamiel Shaw, Sr., father of 
Jamiel Shaw II; Ms. Jessica Vaughan, director of policy studies 
at the Center for Immigration Studies; and Mr. Gregory Chen, 
director of advocacy at the American Immigration Lawyers 
Association.
    And I am now happy to yield to my colleague from Arizona, 
Mr. Salmon, to introduce one of our witnesses that hails from 
his district.
    Mr. Salmon. Mr. Chairman, thank you so much for giving me 
the opportunity to introduce Mike Ronnebeck.
    Mike, it was great talking to you yesterday. Break a leg 
today. I am sure you are going to do great, and your brother 
and your family is going to be really proud of what you have 
done.
    Sadly, Mike is here to tell you about his nephew, my 
constituent, Grant Ronnebeck, who was just 21 years old, who 
was gunned down at a Mesa convenience store over a package of 
cigarettes by an illegal immigrant who was out on bond awaiting 
a deportation hearing.
    This is a clear example of why we need to address the 
failed catch-and-release policies of the Obama Administration.
    As of October 2014, the Maricopa County Sheriff's Office 
reported that 35.4 percent of illegal immigrants arrested 
within the county and given detainers or holds by ICE are 
repeat offenders. That means that they are caught, arrested, 
and then they are flagged by ICE, and then they don't know what 
happens to them.
    Charges against these illegal immigrants have included 
kidnapping, aggravated assault with a deadly weapon, armed 
robbery, sexual abuse, and child molestation. I believe there 
is simply no excuse for ICE to be releasing individuals like 
this back out onto our streets to endanger and kill hardworking 
Americans.
    Shockingly, these violent individuals do not roam our 
streets due to our lack of knowledge about them; in fact, they 
do it in spite of it. In a recent Statement by ICE, the agency 
acknowledged that the Maricopa County Superior Court had 
notified the agency about this individual's status and his 
criminal history but that he had been released pending the 
outcome of his case in immigration court due to the Obama 
Administration policy.
    Thank you for inviting Mike today to tell this story of his 
nephew and this vicious crime that has so devaStated our 
community in Mesa, Arizona.
    God bless you, Mike.
    Mr. DeSantis. Thank you, Mr. Salmon.
    Welcome, all.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify.
    If you can please rise and raise your right hands.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    All witnesses answered in the affirmative.
    Thank you, and please be seated.
    In order to allow time for discussion, please limit your 
testimony to 5 minutes. Your entire written Statement will be 
made part of the record.
    And, with that, Mr. Jones, you are up for 5 minutes.

                       WITNESS STATEMENTS

                   STATEMENT OF SCOTT R. JONES

    Sheriff Jones. Good morning, Mr. Chairman and Members. 
Thank you for allowing me to be here today.
    I am Scott Jones, sheriff of Sacramento County, California, 
one of the largest sheriff's departments in the country and a 
constituency of over 1.4 million people.
    I was invited here today to talk about the national policy 
on immigration and how it is affecting law enforcement at the 
local level. And I can most easily describe that as there is a 
lack of coherent national immigration policy, or what I refer 
to as anti-policy, which is an unwillingness by the Federal 
Government to enforce the existing policies and laws or, worse 
yet, failing to challenge contrary laws and policies 
promulgated by the States, advocacy groups, and court 
decisions.
    I have identified a number of other problems, including the 
inability to adequately identify undocumented persons in this 
country, that I have put in your reading materials, and I hope 
you have an opportunity to read it. But I want to center my 
comments today about the Secure Communities and its progeny, 
the Priority Enforcement Program, and why that program is not 
working.
    Both of those programs are dependent on detainers--ICE 
serving a detainer on a local jail facility that says 
basically, after the local charges are cleared, we want you to 
hold this person for no more than 48 hours, someone we've 
already identified is in this country illegally, so we can come 
to the jail, take custody of them, and do whatever's 
appropriate for their purposes. It is crucial for the success 
of the Priority Enforcement Program. It is crucial for the 
safety of each of our communities.
    It is important to note that the Federal Government in the 
initial stages of these programs were adamant that these 
detainers were mandatory, not permissive or mere suggestions. 
Over the last couple of years, as States and advocacy groups 
became emboldened and talked about how their assertion was that 
they were mere requests and not mandatory, the Federal 
Government remained conspicuously silent for a couple of years 
and now, lately, has capitulated to these advocacy groups that 
they are mere requests, not mandatory, despite the mandatory 
nature of this statutory language.
    As a result, in-custody ICE arrests in California--perhaps 
the Nation, but I know in California--are down 95 percent over 
1 year ago today.
    So who is making immigration policy if not the Federal 
Government? In the lack of the Federal Government coming up 
with clear, coherent immigration policy, there is a policy 
vacuum. So who's filling that? The States, by coming up with 
their own statutory schemes on immigration.
    It's important to note that immigration is a plenary 
function of the Federal Government. The States have no legal or 
statutory authority to come up with any immigration laws 
whatsoever. The Supremacy Clause of the Constitution says that 
wholly Federal questions are within the exclusive province of 
the Federal Government. Yet they feel emboldened to change and 
continually add to and modify immigration law because they know 
the Federal Government will not challenge them at all.
    Also filling this policy vacuum is court decisions and 
advocacy groups. In Clackamas County, Oregon, there was a 
district court decision that decided that a detainer, ICE 
detainer, amounted to an unlawful detention without probable 
cause. Now, this law is only applicable to Clackamas County, 
Oregon, yet the ACLU used this as a vehicle to write a letter 
to every single sheriff threatening a lawsuit based on this 
court decision and said that we cannot honor any ICE detainer 
for any person, despite their crimes, for any reason.
    In looking to the Federal Government to intervene, to 
appeal, to challenge that court decision, there is nothing. And 
so sheriffs across this country are left with no alternative 
other than to not honor any ICE detainers. So anybody coming in 
on fresh charges throughout California and, indeed, most of the 
country is getting in and out of custody through bail, law, or 
any other release mechanism without appropriate identification 
and scrutiny from ICE. The detainer is not working.
    So the ACLU, in effect, has created, established, and 
effected national policy on immigration and will continue to do 
so unless the Federal Government takes up its charge to do so. 
Make no mistake about it: The safety and security of this 
Nation and its communities is eroding at an unprecedented rate, 
and the Federal Government has been a spectator at best and a 
willing participant at worst.
    So what must be done? First of all, the Federal Government 
must take the lead in the national immigration discussion and, 
by doing that, challenge any contrary law, policy, advocacy, or 
assertion by courts' decision, by advocacy groups, or by States 
that challenge the supremacy of the Federal Government's plan.
    They must stand with their law enforcement partners, like 
myself. If they don't, if they continue not to stand with us, 
then we are left to blow in whatever political wind is blowing 
in our States and in our communities, and we, too, will become 
de facto vehicles and instruments for advocacy groups like the 
ACLU.
    They must fix the broken detainer system--it does not 
work--by either changing their stance on their policy, by 
changing the law, or by changing their practice. There are ways 
to do it.
    I remain deeply committed to this issue and will do 
whatever I can as an individual for the purposes of advancing 
this.
    I thank you very much for your time, and I will take any 
questions that the committee may have.
    [Prepared Statement of Sheriff Jones follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. DeSantis. Thank you, Mr. Jones.
    The chair now recognizes Jamiel Shaw, Sr., for 5 minutes.

                  STATEMENT OF JAMIEL SHAW, SR.

    Mr. Shaw. Good morning, Chairman DeSantis and Ranking 
Member Lynch. My name is Jamiel Shaw. My son, Jamiel Andre Shaw 
II, was murdered by a DREAMer, a DACA recipient, a child 
brought to this country by no fault of his own. My family's 
peace and freedom were stolen by an illegal alien from Mexico. 
He was brought here by his illegal alien parents and allowed to 
grow up as a wild animal.
    Some people believe that if you are brought over by no 
fault of your own that it makes you a good person. They want us 
to believe that DREAM Act kids don't murder. I am here to 
debunk that myth. Kids brought over the border by no fault of 
their own do kill Americans.
    How many Americans killed by illegal aliens are too many? 
One? Two? Hundred? Thousand? Hundred thousand? Ask any parent 
whose child was murdered by an illegal alien how many is too 
many. As one of those parents, I am here to tell you that one 
is too many.
    My son, Jamiel Shaw II, was murdered while walking on his 
own street. Three houses down from his home, an illegal alien 
on his third gun charge was visiting a neighbor when my son was 
coming home. He shot my son in the stomach and then in the 
head, killing him. Do black lives really matter, or does it 
matter only if you are shot by a white person or a white 
policeman?
    The district attorney proved in court that my son was 
murdered because he was black and wearing a Spiderman backpack. 
Jamiel's mother, Army Sergeant Anita Shaw, who was serving in 
Iraq fighting for their freedom, called me from Iraq to ask was 
it true that Jazz was dead. And ``Jazz'' is the name we call 
our son, his nickname.
    How many other military families have made that same phone 
call from some foreign land, in disbelief that their sons or 
daughters have been killed in America by illegal alien 
invaders? Do military families matter?
    DREAM Act kids have turned my family's American Dream into 
a nightmare. The illegal alien DREAMer that murdered my son 
only served 4 months of an 8-month sentence for assault with a 
deadly weapon and battery on a police officer. He was released 
from the county jail the day before he executed my son.
    Why was this violent illegal alien allowed to walk the 
streets of America instead of being deported? Why was ICE not 
called to pick up this violent invader? We were promised that 
the Federal Government would keep us safe from violent illegal 
aliens. Article IV, section 4 of the U.S. Constitution 
guarantees us protection against invasion.
    I see in here black politicians, black athletes, black 
stars say, ``Hands up, don't shoot.'' My son was shot in the 
head by an illegal alien gangbanger while he lay on his back 
with his hands up. He still shot him through his hand into his 
head and killed him.
    My son thought he could walk down the street and not be 
murdered by an illegal alien, that he could depend on the 
government to secure our borders and keep the bad people out. 
Yes, black families matter. Yes, military families matter. All 
families matter. But the duty of the U.S. Government is to 
always put American families first.
    Honorable Chairman--I had a different name, I'm sorry--
Honorable Chairman, Ranking Member, today's hearing was called 
to review the Department of Homeland Security's policies and 
procedures for the apprehension and detention and release of 
noncitizens unlawfully present in the United States.
    In his November 20, 2014, speech to the Nation on 
immigration, President Obama said, ``If you are a criminal, 
you'll be deported. If you plan to enter the U.S. illegally, 
your chances of getting caught and sent back just went up.'' 
The President said he wanted to work with both parties to pass 
a more permanent legislative solution.
    The President also said, ``And to those Members of Congress 
who question my authority to make our immigration system work 
better or question the wisdom of me acting where Congress has 
failed, I have one answer: Pass a bill.''
    In three of the past four Congresses, Representative Walter 
Jones has introduced the Illegal Alien Crime Reporting Act, 
which would address many of the issues this hearing was called 
to discuss, but could never get a hearing. In the 113th 
Congress, Representative Jones renamed the bill after my son, 
H.R. 1888, the Jamiel Shaw, Jr., Memorial Act of 2013. It never 
got a hearing.
    As we sit here today, I offer for consideration H.R. 1041, 
Jamiel Shaw II Memorial Act of 2015. It is only two pages long 
but chops at the root of the problem.
    Until the FBI is allowed to track and report illegal alien 
crime, it is doubtful that the American people will understand 
how severe the problem of violent illegal alien crime is.
    I doubt any 10 people would define ``comprehensive 
immigration reform'' the same way, but I can assure you that 
what we really need is comprehensive immigration enforcement, 
secure borders and ports of entry, and the oversight of 
Congress to ensure that America and American families are job 
one.
    Thank you, and I welcome your questions.
    [Prepared Statement of Mr. Shaw follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
           
    Mr. DeSantis. Thank you, Mr. Shaw, for your testimony.
    The chair now recognizes Mr. Ronnebeck for 5 minutes.

                 STATEMENT OF MICHAEL RONNEBECK

    Mr. Ronnebeck. Thank you.
    Good morning, distinguished committee members. My name is 
Michael Ronnebeck. I am here on behalf of the Ronnebeck family. 
I'd like to tell you about my nephew Grant Ronnebeck.
    Grant was a 21-year-old son, brother, nephew, and grandson. 
He was a bright young man with an infectious smile and a love 
of life. He had a positive outlook on life, and everyone he met 
knew it.
    As a 21-year-old American, he was just starting out in 
life--starting out to realize his dreams, starting to follow 
his heart in manners of career choices, and just discovering 
his life choices. His desire was to work his way up at the job 
he loved, working for the QuikTrip Corporation, as he had for 
the previous 5 years, or, possibly later, to become a member of 
the law enforcement community.
    He loved four-wheeling in the desert around his home near 
Mesa, Arizona, and spending time with friends and family 
watching the Broncos play during the football season. He was a 
pretty typical young American man, but to us he was a very 
special family and community member.
    At 4 a.m. On June 22, 2015, while working the overnight 
shift at his QuikTrip store, Grant assisted a man buying 
cigarettes. The man dumped a jar of coins on the counter and 
demanded cigarettes. Grant tried explaining that he needed to 
count the coins before he could give the man the cigarettes. 
The man then pulled the gun and Stated, ``You're not going to 
take my money, and you're not going to give me my cigarettes.'' 
Grant immediately offered up the cigarettes to the man, who 
shot him in the face, killing him.
    Seemingly unaffected and callously, the man stepped over 
Grant's body, grabbed a couple of packs of cigarettes, and then 
left the store. After a 30-minute high-speed chase through the 
streets of Mesa and Phoenix, Arizona, the man was taken into 
custody. Inside his car were the cigarettes, at least two 
handguns, and shell casings from the 9-millimeter handgun 
believed to have been used to kill Grant.
    Apolinar Altamirano, the alleged murderer, is an illegal 
immigrant. According to a news article detailing his 2012 
arrest, he's a self-proclaimed member of the Mexican mafia and 
says he has ties to the Sinaloa drug cartel.
    The news article States that in August 2012 he was arrested 
with two others after kidnapping, sexual assaulting, and 
burglarizing a woman in her apartment. He took a plea deal and 
pled guilty to a charge of felony burglary for that incident. 
He was sentenced to 2 years' probation and turned over to the 
Immigration and Customs Enforcement agency due to his 
undocumented status in the United States. He never served time 
in custody. The Immigration and Customs Enforcement agency 
released the now-convicted felon, Altamirano, on bond pending a 
deportation hearing.
    In the 2 years since then, while awaiting his deportation 
hearing, Altamirano has had two orders of protection filed 
against him, including one from a woman who claimed he 
threatened to kill her and pointed a gun at her boyfriend. The 
Immigration and Customs Enforcement agency was notified of the 
protection orders by a Mesa superior court judge. Altamirano 
was still allowed to be free in our country.
    Your peer Representative Matt Salmon said it clearly in a 
colleague letter to you. ``I believe there is simply no excuse 
for ICE to be releasing individuals like this back onto our 
streets to endanger and kill hardworking Americans.'' I have to 
agree with Mr. Salmon's assessment; my family also agrees with 
Mr. Salmon. ICE should be doing its job for the American people 
with the American people's safety and security first and 
foremost in mind.
    It is my family's greatest desire that Grant's legacy will 
be more than a fading obituary, a cemetery plot, or a fond 
memory. Instead, we want Grant's death to be a force for change 
and reform the immigration policies of this great Nation.
    In closing, I am asking you, our elected scholars, lawyers, 
and community leaders, to make these changes, to rise above 
your political differences, to set aside your personal 
interests, and to use your resources to make sensible 
immigration reform a reality in the coming months so that 
tragedies like this may not occur again.
    Thank you.
    [Prepared Statement of Mr. Ronnebeck follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you, Mr. Ronnebeck.
    The chair now recognizes Ms. Vaughan for 5 minutes.

                 STATEMENT OF JESSICA M. VAUGHAN

    Ms. Vaughan. Good morning. And thank you for the 
opportunity to testify.
    There can be no doubt that immigration enforcement is in a 
State of collapse. Even as the number of new illegal arrivals 
is going up, the number of deportations is going down. And many 
of those apprehended are released, and their cases are funneled 
onto the dockets of the dysfunctional immigration courts, with 
hearings put off for years into the future, enabling them to 
remain and work here, with the expectation that they may 
eventually someday be given legal status.
    Today, the vast majority of illegal aliens residing here 
face no threat of deportation regardless of when or how they 
arrived, even if they are arrested and, now, even if they have 
been deported before. It's no exaggeration to say that, under 
the Obama Administration, the Department of Homeland Security 
is running a giant catch-and-release program.
    This is not because of lack of resources or flaws in the 
law or because there are fewer illegal immigrants. It is the 
result of calculated policy choices made by the Obama 
Administration aimed at dismantling the immigration enforcement 
system.
    We can trace this to two types of policy changes: first, a 
so-called prioritization scheme that shields from enforcement 
all but the most egregious criminals and immigration violators.
    And it's one thing to say that these are the priorities, 
but, at the same time, the administration has abandoned 
important tools that enable ICE officers, agents, and attorneys 
to do their job in an efficient and cost-effective manner. 
Among the tools that have been abandoned: detainers, which 
enable ICE officers to take custody of aliens who have been 
arrested by local law enforcement agencies; accelerated forms 
of due process, which avoid the need for long, drawn-out 
proceedings in the clogged immigration courts; and partnerships 
with local law enforcement agencies to identify and remove 
criminal aliens in jurisdictions where ICE can't cover its 
workload.
    The drop in enforcement activity had become particularly 
acute since the President's controversial Executive actions 
were announced in November, which spelled out new restrictions 
on enforcement. We are told that these policies are smarter and 
more effective, but, in fact, they impose enormous costs on 
American communities--not just distorted labor markets and 
higher tax bills for social welfare benefits but, more 
specifically, a real and present threat to the public safety 
from criminal aliens that ICE officers are told to release 
instead of detain and remove. ICE's mandated over-focus on 
processing only the worst of the worst criminal aliens means 
that too many of the worst deportable criminal aliens are still 
at large in our communities.
    Anyone who claims that immigration enforcement today is 
robust, effective, or record-setting is massaging statistics, 
making apples-to-oranges comparisons, or citing numbers from 
programs that have been discontinued, like Operation 
Streamline. The true State of enforcement is plainly evident in 
Department of Homeland Security's own statistics and can also 
be discerned by listening to career DHS personnel and local law 
enforcement agencies.
    Let's review just a few metrics. Border apprehensions, 
which are considered an indicator of illegal crossing attempts, 
have risen by more than 40 percent since 2011. This is mainly 
due to the surge of new illegal family and juvenile arrivals in 
south Texas. But apprehensions don't tell the whole story. 
Nearly all of these arrivals have been and are still being 
released into the country, usually to join family, instead of 
repatriated.
    The number of overall deportations--and that means all 
deportations, not just removals--by all three enforcement 
agencies has declined by nearly 40 percent since 2009. This is 
the lowest number since 1973. Deportations from the interior 
have dropped even more, 58 percent, since the peak in 2009.
    While Obama Administration officials claim that their 
policy changes have improved public safety by allowing ICE to 
focus on criminal aliens, in fact, the number of criminal 
aliens deported from the interior has declined by 43 percent 
since 2012. This has occurred despite increases in the number 
of criminal aliens identified by ICE as a result of Secure 
Communities.
    ICE is doing less enforcement with more resources than ever 
before, as officers are forced to take a pass on hundreds of 
thousands of deportable aliens that are brought to their 
attention, usually after a local arrest.
    As of mid-January 2015, there were 167,527 convicted 
criminal aliens on ICE's docket who had received final orders 
of removal but who had not departed and were at large in the 
United States after release by ICE and a similar number who are 
in pending deportation proceedings. Meanwhile, ICE is not using 
detention capacity that is provided to it each year by 
Congress.
    Allowing so many deportable aliens, especially criminal 
aliens, to remain at large in our communities means what little 
effort the government makes to deport them is ultimately not 
successful. And the main reason for that is because many of the 
aliens who are released instead of kept in custody simply don't 
comply if they are not detained. And there's a human cost to 
these policies.
    Congress is not helpless in the face of the President's 
abuse of authority. One of the most urgent tasks now before 
them is to restore integrity to our immigration laws by ending 
this massive catch-and-release scheme that wastes government 
resources and endangers the public.
    Thank you.
    [Prepared Statement of Ms. Vaughan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
       
    
    Mr. DeSantis. Thank you, Ms. Vaughan.
    The chair now recognizes Mr. Chen for 5 minutes.

                  STATEMENT OF GREGORY Z. CHEN

    Mr. Chen. Good morning. Thank you, chairmen and ranking 
members and members of the subcommittee. I am honored to be 
able to testify here before you today.
    I also want to offer my sincere condolences to my fellow 
panelists and their family members who have lost loved ones to 
unspeakable crimes that no one can condone. And I think we all 
agree that keeping our communities safe is an incredibly 
important priority.
    Turning to the subject of today's hearing, our Federal 
Government is enforcing immigration law at unprecedented 
levels. The funding for immigration enforcement has steadily 
increased and now averages over $18.5 billion annually. And 
that's more than all the other criminal law enforcement 
agencies combined in the Federal Government, the FBI, DEA, ATF, 
and the Marshals Service included.
    In the first 6 years of the Obama Administration, DHS 
removed about 2.4 million people, and that's more than any 
other President. Immigration detention, in fact, continues to 
rise, and more than 440,000 individuals are detained each year, 
costing about $2 billion annually to American taxpayers.
    The Department of Justice is prosecuting more people now 
than at any time in history for the Federal crimes of illegal 
entry and reentry. And we have more Border Patrol agents, 
border fencing, drones, and other methods of border 
surveillance than at any time in U.S. history.
    Now, even at these current unprecedented levels of 
enforcement, the Federal Government cannot possibly detain, 
apprehend, and remove everyone who is living unauthorized in 
the U.S. Just like any other law enforcement agency, DHS must 
choose priorities. It makes more sense and will keep our Nation 
safer to focus on those who present real threats to national 
security and public safety.
    Now, it is AILA's judgment that the DAPA and DACA programs 
are valid exercises of prosecutorial discretion that rest 
within DHS's legal authority. Many local law enforcement 
leaders across the country agree. And, in fact, the Major 
Cities Chief Association and many individual sheriffs and 
police chiefs support these deferred action programs announced 
by the President, and they've Stated publicly that the Federal 
Government's ability to exercise discretion in immigration 
enforcement actually promotes public safety.
    Now, with respect to immigration detention, such detention 
is a proper government function, but it must be done within the 
boundaries of the Constitution and our laws.
    From a legal perspective, immigration detention serves a 
civil purpose and is not a form of criminal punishment. 
Typically, those convicted of crimes who are subject to removal 
face immigration detention after they complete their period of 
incarceration as criminal punishment. Now, in those cases where 
ICE has custody of an individual and has the legal authority 
and discretion to detain or release that individual, it is 
required to evaluate whether that person poses a flight risk 
and a risk to public safety before it releases that person.
    Now, the Constitution and our laws also protect individuals 
from the unfair deprivation of their liberty, and that concept 
must be balanced. AILA is gravely concerned about DHS's 
detention of families who have fled persecution from Central 
America. Last year, the refugee crisis in Central America 
resulted in a large surge that had been growing steadily in the 
years before of families and children coming to our border 
seeking asylum protection.
    Volunteer AILA lawyers have represented about 1,200 of 
these people voluntarily, in pro bono capacity. We have found 
and government statistics also confirm that extremely high 
percentages of these detained women and their young children 
are likely to qualify for asylum. But the Obama Administration 
responded by escalating the use of detention on thousands of 
families in order to deter more from coming to our borders.
    Just last week, on February 20, a Federal district court 
enjoined DHS from detaining certain families for the purpose of 
such deterrence of future immigration. The Federal court's 
decision underscores a broader principle that detention must be 
justified on specific information demonstrating a safety threat 
and that general assertions of such dangers are not going to be 
adequate for detention purposes.
    In summary, enforcement is occurring at very high levels--
in fact, at unprecedented levels on many metrics. DHS is 
focused on national security, border security, and those 
convicted of crimes, and that's intended to improve public 
safety. Enforcement, of course, is bound by the Constitution, 
and it must be balanced, however, by the principles in our 
Constitution that undergird and are the founding concepts of 
our Nation.
    Thank you.
    [Prepared Statement of Mr. Chen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
       
    Mr. DeSantis. I thank the witnesses.
    The chair would ask unanimous consent to enter into the 
record a letter sent by myself and Chairman Chaffetz dated 
January 29, 2015, to Secretary Jeh Johnson asking for the 
information in DHS's files about the man who killed Grant 
Ronnebeck.
    Without objection?
    Mr. Cartwright. Without objection.
    Mr. Cartwright. And, Mr. Chairman, I would ask unanimous 
consent also to enter into the record a letter dated February 
22, 2015, from Brian de Vallance from the U.S. Department of 
Homeland Security noting that the invitation to Secretary 
Johnson was received late Thursday, allowing less than 1 full 
business day to prepare testimony, but also inviting the 
committees and subcommittees to reschedule, particularly 
offering the dates March 11, 12, or 19 or any other dates that 
would be convenient for the subcommittees.
    Mr. DeSantis. All right. Without objection, both will be 
entered in the record.
    Mr. DeSantis. Some of those days are recess dates, but we 
appreciate it.
    I would note that Chairman Chaffetz and I sent this letter 
January 29 to try to get some answers for the Ronnebeck family 
and the American people. We asked for the file to be provided 
to us by February 4. To this date, we have not received a reply 
from that letter, and I think that's very disappointing.
    And so some of the protests about not having enough time I 
don't think are as credible when you view it against the 
background of basically thumbing the nose at the committee for 
the past month.
    And, with that, the chair will recognize himself for a 
period of 5 minutes.
    Mr. Cartwright. If I may, Mr. Chairman, there appears to be 
some lack of clarity as to whether our able colleague 
Congresswoman Michelle Lujan Grisham has been formally assigned 
to this Subcommittee on Health Care, Benefits, and 
Administrative Rules.
    To clear up any confusion, I ask unanimous consent that 
Congresswoman Lujan Grisham be able to participate fully in our 
hearing today.
    Mr. DeSantis. Without objection, so ordered.
    The chair now recognizes himself for a period of 5 minutes.
    Mr. Shaw, thank you for your testimony. I was on the 
Judiciary Committee last year when you testified. You were very 
powerful. It made quite an impact on me in terms of how I view 
this issue.
    Can you just describe, how has this event impacted your 
family?
    Mr. Shaw. Oh, it's pretty much--like Obama said, it 
fundamentally transformed us. You know, I mean, we are--it's 
been 7 years, and me, personally, I still don't even believe it 
happened. You know, my brain, I'm still asking is it true and 
stuff like that.
    You know, my son's mother, she's still in the military. 
She's at Fort Hood, Texas, right now. So she's grieving, you 
know. She hasn't been the same since.
    My other son was 8 years old at the time; he's now 16. And 
we're scared for him, you know. He's living in the Army base in 
Fort Hood because we think that's safer than L.A.
    So, you know, my mother, the whole family is--we are all 
just devaStated.
    Mr. DeSantis. Is there any doubt in your mind that your 
son's death could have been prevented?
    Mr. Shaw. Oh, yes, definitely. We see it as being murdered 
by invisible people, because he shouldn't have even been here. 
So he shouldn't be dead, you know? If the Homeland Security or 
ICE would secure the border, he would have never been here, you 
know.
    He was brought over at 4 years old. And like they say, they 
think just because you're brought over, then you're like a 
child of God, so they don't even watch them. You know, the guy 
who murdered my son was in the country 15 years before he 
killed my son. So that shows that just because they're brought 
over as kids, that doesn't mean for the future--you know, 
you're putting everybody in jeopardy for in the future that it 
might happen.
    So you check them early. You have to do your job, secure 
the border. That's the main thing.
    Mr. DeSantis. When you hear that 36,000 convicted criminals 
who were in the country illegally were released in 2013 and now 
1,000 of those have already been convicted of new crimes, what 
do you think of that?
    Mr. Shaw. You know, to be truthful, it pisses me off. I 
hate to say it like that, but it does.
    Because the guy who murdered my son, he was in a car with 
two other people. The guy in the backseat was just there 
because he had to document that he got out of the car and he 
killed somebody black. He had to be there to document it. The 
guy in the backseat has since murdered someone since then. So 
someone else's child was murdered, like, 3 years after my son, 
but it could've been avoided if they would have deported him.
    They just--it's just--no one--we feel like no one cares.
    Mr. DeSantis. Mr. Ronnebeck, thank you for your testimony. 
And please accept my condolences for your family's loss.
    How has the family been impacted by Grant's murder?
    Mr. Ronnebeck. You know, this can only be described as a 
family's worst nightmare.
    Grant was such a lively young man and a loving young man. 
He was a mentor to his younger brother. He was, you know, by 
all accounts of my brother, who is Grant's father, he was just 
one of the best kids that a parent could ever have.
    You know, I wish I could say that the pain is quickly going 
away, but it isn't. It's going to be a long time.
    Mr. DeSantis. Now, in your opinion, obviously, with the 
circumstances involved and the murderer being convicted and 
then being detained and released, is it your opinion that this 
death could have been prevented had government done a better 
job here?
    Mr. Ronnebeck. Absolutely. You know, this guy was a 
convicted felon that ICE released. I mean, they never even had 
him in custody. They released him on a bond. If he had remained 
in their custody and had been deported, this wouldn't have 
happened.
    Mr. DeSantis. And I will ask the same question I asked of 
Mr. Shaw. When you hear that just 2 years ago 36,000 criminals 
were convicted who were in the country illegally, they've been 
released, and now, of those, 1,000 have already been convicted 
of new crimes, how do you feel about that?
    Mr. Ronnebeck. It makes me angry. It is just ludicrous that 
the policies of our Immigration and Customs Enforcement agency 
are that flawed that they are allowing these criminals to go 
free.
    Mr. DeSantis. Thank you.
    Ms. Vaughan, we hear talking points about the number of 
removals being high under President Barack Obama's 
administration and that they're higher than they've ever been 
under previous administrations.
    But isn't the reason for that that they changed the 
criteria for what counts as a removal, so you're counting 
people under President Obama's administration who would not 
have been even been counted under Bush, Clinton, or Reagan?
    Ms. Vaughan. That's exactly right. And Secretary Johnson 
has testified to this exact point, that the numbers today are 
not comparable with prior administrations. What they've done is 
taken cases from the Border Patrol that get turned over to ICE 
for processing, and they're counting those for ICE and 
sometimes also for the Border Patrol.
    So it's important to look at removals of all three DHS 
agencies, to look at returns and removals, and, in particular, 
to look at what's happening in the interior of the country 
because that's what people notice and that's where the public 
safety problems are created, when ICE is not deporting people 
from the interior of the country. Right now, two-thirds of the 
deportations that ICE is taking credit for are actually people 
who were arrested by the Border Patrol.
    Mr. DeSantis. We've also heard about how some of the 
released criminals, DHS, they had to release them, that was 
kind of the law. Can you speak to that? Are these discretionary 
or are they all just mandatory where there's no other option?
    Ms. Vaughan. There are some of them that are 
nondiscretionary, a small number. I was told that approximately 
3,000 of the 36,000 from 2013 were due to the Zadvydas decision 
that was referenced earlier. Most of them, though, are the 
result of the prosecutorial discretion policies, the 
prioritization, that ICE agents are told they're not to take 
action against most of the people that they encounter, and so 
they get released.
    Mr. DeSantis. And my final question is, there are instances 
in which you will have somebody who is in the country 
illegally, they'll get convicted of a serious criminal offense. 
Maybe DHS will went to return them to their home countryand 
maybe there's resistance from the home government. But isn't 
there a provision of the law that if that happens, the DHS 
Secretary is supposed to notify the Secretary of State so that 
the Secretary of State can suspend visas from that country 
until they accept their national, correct?
    Ms. Vaughan. That's right.
    Mr. DeSantis. And has Secretary Johnson or his predecessor, 
have they ever, to your knowledge, notified State that some of 
these countries are not accepting these criminal--their foreign 
nationals?
    Ms. Vaughan. My understanding is that they have not asked 
the Secretary of State to impose visa sanctions.
    Mr. DeSantis. My time has expired. The chair now recognizes 
Mr. Lynch--who is not here. So I'll recognize Mr. Cartwright 
for 5 minutes.
    Mr. Cartwright. Thank you Mr. Chairman.
    We've now heard your testimony, Mr. Shaw and Mr. Ronnebeck. 
And, again, I want to express my heartfelt condolences. And I 
know I speak for everyone on both sides of this panel in saying 
that.
    Mr. Ronnebeck, you're still reeling from this recent loss. 
But as you said, the pain doesn't go away.
    And, Mr. Shaw, your loss was in March 2008. And I think you 
probably agree with that, don't you?
    Mr. Shaw. Yes.
    Mr. Cartwright. So, again, deepest condolences.
    I was pleased to learn that just yesterday Senate Majority 
Leader Mitch McConnell decided to stop the process going on by 
his Republicans colleagues in the Senate, decided to move 
through the Senate a 4-year DHS funding bill without provisions 
to defund the administration's immigration policies. He also 
said the Senate will vote separately on a bill that halts the 
administration's actions on immigration.
    The Senate is expected to vote on the funding measure as 
early as today, but Senate Democratic leaders want assurance 
from House Speaker John Boehner that he will take up the bill 
before Friday's deadline. Speaker Boehner really has to put an 
end to this showdown and agree to bring up the clean DHS 
funding bill to the floor as soon as it passes the Senate. This 
is the very least we can do for the American people. And as Mr. 
Lynch indicated, the Democrats will support the Speaker if he 
brings up such a clean bill. In fact, every single Democrat 
cosponsored a clean DHS funding bill already. And so all 
Speaker Boehner has to do is bring it up for a vote, fund our 
law enforcement agency, debate policy, pass laws.Is that too 
much to ask?
    So I'm sick and tired of what may fairly be called 
hypocritical actions by some of my colleagues across the aisle. 
It doesn't make any sense to criticize the administration for 
not enforcing our immigrations laws and then threaten to shut 
down the very agency responsible for enforcing those laws.
    Now, Mr. Chen, my question is for you. Do you agree that it 
is the responsibility of the Congress to fund the Department of 
Homeland Security?
    Mr. Chen. Thank you, Mr. Ranking Member.
    I do agree that funding the Department of Homeland Security 
is going to be an important step to be able to ensure that 
Homeland Security operations and protecting our Nation's 
borders and public safety is an important thing that needs to 
be done by Congress. And it's very difficult to be able to have 
those operations continue, if we talk about any of the 
enforcement operations, if Congress doesn't continue to fund 
it.
    Mr. Cartwright. Do you agree, Mr. Chen, that it is wise for 
House leadership to leave the immigration debate out of the DHS 
funding measure and bring up a DHS funding measure on a clean 
funding measure basis?
    Mr. Chen. Well, AILA's position with respect to the 
executive actions is that they are within the President's legal 
authority. I understand that there's deep controversy about the 
wisdom of those decisions, as well as the constitutionality. 
The funding of the Department of Homeland Security 
appropriations bill needs to move forward.
    And immigration is an issue that AILA is incredibly 
invested in, in terms of having immigration reform happen 
legislatively. AILA's concern is that to have it happen in such 
a short period of time, such as being attached to an 
appropriations bill, is probably not the right venue to do it, 
given the limited amount of time and the debate needed to have 
a discussion, a real debate on immigration reform.
    Mr. Cartwright. And I agree with that. I think that the 
funding of DHS is so important, because these are the people 
that process the Fire grants that are so important to fire 
companies all over the United States. They ensure not only the 
safety of the fire men and women, but also the folks who call 
them in the middle of the night.
    So it is utterly irresponsible for us to shut down DHS 
while we wrangle over some side political show. Even Speaker 
Boehner's Republican colleagues in the Senate have come to 
their senses about this, and I submit that it is time for 
Speaker Boehner to do the same, bring up a clean DHS funding 
bill, and let's act like grownups around here.
    With that, I yield back, Mr. Chairman.
    Mr. DeSantis. The gentleman yields back.
    The chair now recognizes the chairman of the Benefits 
Subcommittee, Mr. Jordan, for 5 minutes.
    Mr. Jordan. I thank the chairman. The gentleman from 
Pennsylvania said that we haven't funded the Department of 
Homeland Security. Last I remember, we actually passed a bill 
that completely funds the Department of Homeland Security.
    So, Ms. Vaughan, when the U.S. House of Representatives 
passes legislation that funds the Department of Homeland 
Security at levels the Democrats agreed to, would you think 
that that's actually funding the Department of Homeland 
Security?
    Ms. Vaughan. The bill was passed that would fund the 
agency. What it would not fund are the President's overreach of 
authority.
    Mr. Jordan. Exactly. Right. So to say we haven't funded DHS 
is just flatout wrong. We have funded DHS at exactly the level 
the Democrats wanted it funded. But what we also said was that 
the actions the President took in November we think are wrong.
    Would you agree with that, Ms. Vaughan?
    Ms. Vaughan. I would. And the bill that the House passed, 
in fact, would address the issues that we're talking about 
today because it would roll back the executive actions that 
prevent ICE from doing its job.
    Mr. Jordan. Yes. Now, I'm not the expert you are, but I 
actually think what the President did was, in November, was 
unconstitutional. Would you agree, Ms. Vaughan, that it was 
unconstitutional, the President's actions? Five million folks. 
Would you agree that's unconstitutional, what the President did 
in November?
    Ms. Vaughan. Yes. In my opinion, it is an abuse of 
executive authority.
    Mr. Jordan. Yes. And you don't have to take my word or your 
word or all the other legal scholars who said it, we actually 
had a Federal judge, right, just a week ago who said what the 
President did was unlawful, correct?
    Ms. Vaughan. That's right.
    Mr. Jordan. All right. So when the previous speaker, the 
gentleman from Pennsylvania, said is it too much to ask for the 
House to pass a bill and fund DHS, A, we've done that, right, 
Ms. Vaughan?
    Ms. Vaughan. Yes.
    Mr. Jordan. Yes, we passed it. It passed the House. There 
was a vote taken. I remember. I voted. It's over there. It's 
been there for over a month. So we've done it. But we did make 
clear in that legislation that we think it's unconstitutional. 
We take an oath, we just took it last month when we were sworn 
in, an oath to uphold the Constitution. I believe it's 
unconstitutional. I don't know how we couldn't put the language 
in the bill that we did. And, oh, by the way, a Federal judge 
has agreed with us and said it's unlawful.
    So the real question to ask my colleagues on the other side 
is, is it too much to ask Democrats, is it too much to ask them 
to say, you know what, let's pass a bill that agrees with the 
Federal judge and doesn't fund something that he said was 
unlawful? Isn't that the central question, Ms. Vaughan?
    Ms. Vaughan. Yes. And my understanding is that the Senate 
would like to have a debate on it, but the Democrats are 
preventing that debate from starting.
    Mr. Jordan. Exactly. We can't even pass something a Federal 
judge says makes sense, the American people understand makes 
sense, you understand makes sense, that everyone gets. We can't 
pass it. We can't even debate it. They won't even let it be 
debated.
    So when they use the term, my friends on the other side use 
the term ``hold hostage,'' you got to be kidding me. They won't 
even debate it? So if anyone is holding anything hostage, it's 
the folks in the Senate, the Democrats in the Senate, who won't 
even talk about it. We're willing to talk about it. They're not 
willing to talk about it. Secretary Johnson was invited to be 
here today to talk about it. He won't even come. He can go on 
every stinking TV show there is, but he can't come answer our 
questions and the American people's questions, and particularly 
questions from families who were wronged by some of the very 
actions taken by this administration's immigration decisions.
    For the life of me, this boggles my mind. Why in the world 
do Democrats insist upon language in a bill to fund something 
everyone knows is unconstitutional and a Federal judge has 
ruled is unlawful? That's their position. And somehow, oh, no, 
it's Republicans doing the wrong thing? You've got to be 
kidding me.
    Mr. DeSantis. Will the gentleman yield for a question?
    Mr. Jordan. I'd be happy to yield because I want someone to 
give me an answer to that commonsense question that we keep 
asking the Senate. So I'd be happy to yield.
    Mr. DeSantis. Well, because we talk about a clean bill, and 
people use that term. Wouldn't the definition of a clean bill 
mean a bill that funds the statutes as they actually exist and 
that is consistent with existing law? And if you're actually 
funding things that were not constitutional, I wouldn't want 
that. I wouldn't say that was clean. I would say that's a dirty 
bill. That's a violation of the Constitution.
    Mr. Jordan. The chairman makes a great point. Clean 
legislation is legislation that's consistent with the Federal 
judge's ruling last week. That's what our bill does. We want to 
make sure TSA agents are paid, our Coast Guard is paid, our 
border security. We want to make sure everyone who is doing the 
good work that needs to be done gets paid, but we want to do it 
in a way that's consistent with the Federal judge's decision 
and the oath we took when we were sworn in just a month ago.
    Mr. Chairman, with that I yield back.
    Mr. DeSantis. The gentleman yields back.
    The chair now recognizes the gentleman from California for 
5 minutes.
    Mr. Lieu. Thank you.
    And first of all, thank you, Mr. Jones. I was in the 
California State Legislature for nearly a decade. Thank you for 
keeping the communities around us safe.
    And to Mr. Shaw and Mr. Ronnebeck, I am very sorry for your 
losses. And nothing I can say or can do will bring those people 
back. But I get the sense from you that you would like to see 
some changes so that this doesn't happen in the future, and I 
share with you those views.
    But for us to get something done, the Founders put in a 
separation of powers. So not only do we need the executive 
branch to agree, we need Congress to agree, then we need the 
courts to sign off on it. And I want to delve a little more 
into the Supreme Court case that appears to put some 
restrictions on DHS.
    Senator Grassley made an inquiry that 36,000 criminal 
immigrant detainees were released by ICE in Fiscal Year 2013. 
And then ICE responded, and I would like to enter into the 
record ICE's response to Senator Grassley, which is date 
stamped August 15, 2014.
    Mr. Lieu. And that response Stated, ``ICE had no discretion 
for the releases of many of these individuals.''
    And so my question to Mr. Chen is, I just want to make 
sure, is it true that ICE further Stated that some of these 
nondiscretionary releases were, in fact, due to the Supreme 
Court's ruling and not because ICE just decided to do it.
    Mr. Chen. I can't speak to what ICE said before. But my 
understanding is that, yes, many of those releases--I don't 
know all the circumstances around each one of them and I'm not 
here to testify on behalf of the Department of Homeland 
Security--but the Supreme Court ruling that Ranking Member 
Lynch mentioned before, Zadvydas v. Davis from 2001, does, in 
fact, place restrictions on when Immigrations and Customs 
Enforcement and for how long it can detain an individual.
    Yes, there are countries that delay or refuse to accept 
their nationals back after they've been ordered removed. And 
ICE, the Supreme Court said, cannot indefinitely hold those 
individuals here in the United States.
    And one other thing that I would mention is that ICE has 
taken efforts to hold individuals under special circumstances 
beyond the presumptive 6-month period that the Zadvydas court 
mentioned, people who pose extreme danger to the community. It 
has taken those steps, and there are people who actually have 
been detained for years now. They are people who have committed 
unspeakable crimes, and I don't think anybody would disagree 
that those individuals probably pose real dangers to the 
community. But ICE has made those efforts to extend the 
detention of those individuals pursuant to the Zadvydas ruling 
and the rules that have followed.
    Mr. Lieu. Thank you. And I'd just note that when people 
read ICE's response to Senator Grassley, you'll see that of the 
169 ICE detainees with homicide-related convictions who were 
released in 2013, 154 were released pursuant to court order.
    And I want to sort of bring up another point, which is that 
this problem is not particularly unique in terms of release to 
undocumented aliens. In California we shifted tens of thousands 
of convicted felons from Federal prisons to local jails. 
Because the jails are overcrowded, many of them were released. 
And they were releasing convicted, dangerous sex offenders, for 
example. One had been released over a dozen times and then 
killed someone.
    So I authored a law last year that actually said, no, no, 
no, you need to hold these people in these jails. But it's a 
resource issue. And so there had to be more funding to allow 
for that to happen. And it's my hope that we can increase 
revenues through the Federal budget which would allow us to 
give more resources to all Federal departments, including DHS. 
And if we can fund DHS, that would certainly be of immense help 
to making sure that things like this don't happen in the 
future. And with that, I yield back the balance of my time.
    Mr. Russell [presiding]. The gentlemen yields back his 
time. The chair will now recognize himself for 5 minutes.
    The real issue here is both domestic and also a national 
security issue. One of the things that we see is that States 
are frustrated, as Mr. Jones has attested to in his law 
enforcement capacity. A lack of action by Federal enforcement 
has only demoralized State and local law officials. Many 
efforts to aid Federal immigration enforcement could be very 
successful, But when they're turned in, they're merely 
released. In my home State of Oklahoma, they even had the 
provisions to, when they did make apprehensions, to turn these 
individuals over to ICE, even paying for the transportation and 
incurring those costs. The result was, however, that nothing 
happened. They were released.
    Article IV, Section 4, it is very, very clear that it says 
that the government has a responsibility to protect States 
against invasion, as was pointed out by Mr. Shaw. And yet the 
Preamble of the Constitution says that we have a requirement to 
provide for the common defense. Now, we've heard an awful lot 
of talk about what the Constitution is. I've been defending it 
since I was 18 years of age in a previous life and now as a 
Member of Congress.
    The concern in an illegal transnational terrorist entrant, 
who can be found in no data base, could now be characterized as 
a nondeportable. He could be free to remain, plot, plan, aid, 
abet the harm of the United States and its people.
    And my question for Mr. Chen is, do you believe, as my 
colleague from Pennsylvania has Stated, that upholding the 
Constitution is some side political show.
    Mr. Chen. I'm not sure I understand the question, Mr. 
Chairman.
    Mr. Russell. Do you believe that upholding the Constitution 
is a side political show?
    Mr. Chen. AILA, as attorneys that represent businesses, 
families, individuals across the country every day, certainly 
believes in the importance of upholding the Constitution.
    Mr. Russell. I agree.
    Mr. Chen. With regard to the politics, we don't have a 
comment.
    Mr. Russell. Well, then Article I, Section 8, Congress 
shall have the power to--and a long list of powers that it 
retains--establish a uniform naturalization rule. Who has the 
power under Article I, Section 8, in that explicit language in 
Article I, Section 8 of the Constitution?
    Mr. Chen. I would have to defer that question. I am not 
familiar with that particular provision.
    Mr. Russell. Article I, Section 8, Congress shall have the 
power to establish a uniform naturalization rule. It's pretty 
clear. Article IV, Section 4, we have protection against 
invasion, which we Stated earlier. How do you believe the 
President's immigration actions--when you have the legislative 
branch of government, you have the judiciary branch of 
government, and now even the executive branch of government in 
agreement when the President Stated 22 times he had no 
authority to do what he did, and yet here we are--how do you 
believe that the President's immigration actions uphold the 
Constitution and the security of the United States?
    Mr. Chen. As I mentioned before, AILA does believe and, by 
our legal analysis, it is our view that the November 20 reforms 
are legal and also constitute good policy with respect to 
immigration reform. The basis for that legal authority draws 
from the inherent authority of the law enforcement agencies to 
set priorities. Prosecutorial discretion is one of the well-
established principles of setting those kind of enforcement 
priorities. That has been a practice that has been done by law 
enforcement agencies historically. Legacy Immigration and 
Naturalization Service used that practice. And Presidents 
before President Obama exercised prosecutorial discretion.
    Mr. Russell. They did with the authority of the Congress, 
Mr. Chen, not on executive action unilaterally.
    How many other than Mexicans, OTM's classified, cross our 
southern border a year? We have evidence thatindividuals from 
Afghanistan, Iraq, two places that I've fought as a combat 
infantryman, Iran, Pakistan, Somalia, Sudan, Yemen, Venezuela, 
and Egypt have crossed into our border. Do you think this poses 
a threat to the United States?
    Mr. Chen. I don't have any specific information about those 
individuals that you mentioned. As we all know, the border 
security, Customs and Border Protection, are charged with 
screening those individuals very carefully. But I can't speak 
to----
    Mr. Russell. And so on a screen, then what would happen if 
they can find really no evidence and they can't run, they're 
not in any kind of data base, are they or are they not just 
deferred and put into some type of hearing status? And could 
they be at large in the United States?
    Mr. Chen. Well, as I mentioned before, substantial 
background checks and security checks are done on individuals 
upon entry, especially if they have those kinds of records. 
Those individuals should be screened out. People who request 
visas are also screened very carefully at the Department of 
State in the consular process to make sure that they don't have 
those kinds of records.
    Mr. Russell. Those would be for legal entrants.
    My time has expired. And the chair will now recognize the 
lady from the District of Columbia, Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    I want to thank all the witnesses for sharing their stories 
and to certainly recognize the tragedy involved in some of 
them, tragedies that we see throughout our systems even when 
there are good faith efforts to uphold the law. Some of what 
has been said here today reinforces the administration's policy 
of prioritizing known criminals for deportation.
    My colleagues are fond of holding up the Constitution as 
some kind of prop. Once you get into the content of the 
Constitution there are sometimes very inconvenient truths. For 
example, if someone breaks into your home, kills my loved one, 
he is going to get the same due process that someone who is 
obviously innocent gets under our Constitution. So that it 
seems to me worth asking Mr. Chen to discuss with us why any 
immigrant detainees would be released for any reason. And I'm 
asking that question in light of briefly what the Due Process 
Clause of the Constitution of the United States requires as 
applied to the detention of unlawful immigrants,so that we can 
get straight right now why these unlawful immigrants cannot 
simply be held simply because they are unlawful.
    Mr. Chen. Thank you for the question. And as we've already 
discussed before, there was the Supreme Court decision in 
Zadvydas, which I won't go through again, but it is based on 
the principle, as you mentioned----
    Ms. Norton. I want the principle to be discussed, the due 
process principle, and why it should apply to people who are in 
the country illegally. Why did the Supreme Court say, since 
they're here illegally in the first place, why does due process 
apply to them?
    Mr. Chen. Well, the U.S. Constitution and the Due Process 
Clause certainly do apply to people who are here in the United 
States as immigrants or even those who are unauthorized, and 
the court has spoken on that, and I mean the Supreme Court with 
that respect. And before an individual is going to be released 
the government is bound to follow the Constitution in how it 
examines and how it's going to detain that person.
    One requirement is that the individual will be screened, 
and there needs to be specific information as to whether or not 
that person poses a threat to the community. That protects the 
individual's liberty interest, and that is specifically 
something that derives from the due process clause.
    Ms. Norton. So that those people can have bond and can get 
released just like ordinary people who are being held for 
unlawful acts here in the criminal justice system?
    Mr. Chen. Well, for those individuals who would be entitled 
to bond, the Immigration and Customs Enforcement or sometimes 
they can come before an immigration judge to make that 
determination as to whether they constitute a flight risk or a 
threat to public safety. I should point out that many people 
are held indefinitely or for prolonged periods of time without 
ever having the opportunity to appear before a judge.
    Ms. Norton. How can that happen?
    Mr. Chen. It's one of the aspects of our immigration system 
where individuals are not afforded the opportunity----
    Ms. Norton. And what kinds of individuals are these, Since, 
obviously, many individuals have not been held indefinitely, 
which has come up again in this hearing? Who is it that can be 
held indefinitely?
    Mr. Chen. Well, these are individuals who typically would 
be unauthorized in the United States. Some are held pending 
their proceedings and----
    Ms. Norton. Yes, but that doesn't answer, Mr. Chen. Many of 
these people cannot be held under court decisions now. There 
must be a group that you're speaking about who can be taken out 
and held indefinitely in a country which usually does not allow 
indefinite detention. What kind of an alien does that have to 
be in order to be held indefinitely?
    Mr. Chen. Well, the Zadvydas decision that was mentioned 
before grows specifically out of the set of examples of 
individuals who cannot--their countries are refusing to or are 
delaying acceptance of their return after they've been ordered 
removed.
    Ms. Norton. So those are countries like China, these are 
not usually the countries like Mexico or Central America?
    Mr. Chen. That's right. And the specific circumstance that 
I want to mention is that under the Supreme Court decision 
there are special circumstances where certain individuals who 
have mental illness or who pose special threats to the 
community, the Immigration and Customs Enforcement, the 
government can present those facts and request longer 
detention. That was not been used frequently, but I believe 
that there are individuals who have been detained very long 
periods of time under that provision.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Russell. And the gentlelady's time has expired. The 
chair thanks the gentlelady and now recognizes the gentleman 
from Michigan, Mr. Walberg.
    Mr. Walberg. Thank you, Mr. Chairman.
    I have a number of questions I'm prepared to ask this 
panel. And I appreciate you being here, and especially the 
family members that have suffered such tragedy, and I would 
concur, without sense, senseless tragedy.
    But, Mr. Chairman, I guess I would like to continue with 
some Statements in response to what I've been hearing from my 
Democrat colleagues. And with all due respect, I think we're 
all here to defend Article I, Article II, Article III powers. 
That's the beauty of our grand experiment in democracy based 
upon a Constitution and a separation of powers that gives us 
the ability to expand what we do for our people and to make 
sure that they're carried across the finish line of their life 
in this great country with success and with safety.
    But I hear Statements that talk about us not acting as 
adults and getting on with what is necessary to carry out our 
responsibility for our country, and specifically in this area 
of dealing with illegal aliens in the land that are committing 
atrocities or aren't committing atrocities but they have 
violated the law. We have in this Congress, this House, passed 
significant legislation that funds all of the processes that 
we're looking for with this panel. We have taken care of 
funding border security. We have taken care of dealing with 
ICE. We have taken care of giving powers to our Governors, 
including Michigan, in the border States to secure the safety 
of their people. We've done that. We've acted as adults in the 
room.
    We've also said that we will establish our constitutional 
authority and not relinquish it to any President, this or any 
other President to come. We will take that authority and we 
will use it because we represent the people--the people--who 
should be the strongest authority in the land. We have done 
that. We have not relinquished our authority. It is the Senate 
Democrats that have been unwilling to follow the course that we 
have designed in our Constitution to carry out action, to 
protect our people, to secure the liberties for our people, and 
to establish policy that moves within the Constitution and not 
outside of it. That's what we've done.
    And shame on, Mr. Chairman, the Senate Democrat leadership 
for being unwilling to even debate the issueand do what the 
American people expect us to do. And I, for one, am sick of 
that. And I just want to make sure that all who are listening 
in this room, all who are listening on C-SPAN, all who are 
listening on any report that comes from the news media hear the 
fact that we have done our job to secure this country, to deal 
with the problems that these two individuals who have family 
members who were murdered senselessly should expect us to carry 
on.
    The House has acted. The Senate needs to act. And where 
should the language that pushes back against an 
unconstitutional takeover by this President of authority that 
we alone have, where should that be placed? None other than in 
the Homeland Security funding bill. That's where it's 
appropriate to be passed.
    And so I hope that the pressure is placed upon the 
appropriate entities in the U.S. Senate to do their job as 
we've done our job, because, Mr. Shaw, Mr. Ronnebeck, you and 
your families deserve that.
    Now, let me back off a bit and get to a question. Ms. 
Vaughan, what impact will the Priority Enforcement Program have 
on law enforcement's ability to accurately identify those 
undocumented persons who present a threat to society?
    Ms. Vaughan. It's going to make it much more difficult, the 
result is going to be less enforcement because ICE is really 
going to be subject to the decisions of local law enforcement 
agencies and the ability of local law enforcement agencies to 
notify them in a timely manner when a criminal alien that ICE 
selects for deportation is going to be released so that ICE can 
take them into custody. It's setting back immigration 
enforcement more than a decade and consigning them to using 
emails and fax machines and telephone calls instead of the 
electronic, very efficient system that was set up by the Secure 
Communities program that worked very well.
    Mr. Walberg. Insignificant tools.
    Mr. Russell. And the gentleman's time has expired.
    The chair now recognizes the gentlelady from New Mexico, 
Ms. Lujan Grisham.
    Ms. Lujan Grisham. Thank you, Mr. Chairman.
    And I too want to express my sincere condolences to the 
families. And these are really tough hearings, and it takes 
incredible courage and determination to come before this 
committee and any other committees and to talk about your 
personal stories and to ask us, and particularly this 
committee. It's an oversight committee with incredible latitude 
and power to get at the right kinds of solutions for problems.
    And my hope in every hearing, but particularly these kind 
of hearings, where the stakes are so high, that we do 
everything in our power to do things that we can do right now, 
which is why I hoped that we were planning to have the 
Department of Homeland Security here before this hearing to 
talk to us about several issues that they can do right now and 
to talk to us very clearly and specifically about what they do 
to protect Americans, to protect families, to screen 
appropriately, to prioritize. They always, there's always some 
kind of prioritization process.
    I appreciate my colleague, Ted Lieu, speaking of that. I 
was a county commissioner where you're trying to manage jails 
and the State prison populations and figure out what you do. 
And I wish that wasn't the case. I wish none of us had those 
real harmful criminal activities or issues that we have to deal 
with in our communities. That's what I wish. And so this 
committee really can do something and should do something.
    And to illustrate that, I want to ask Dr. or attorney Chen 
to--I guess I can say Dr. Chen, I'm a doctor of law myself--I 
know that we've mentioned the 2013, the 36,000 criminal 
immigrant detainees that were released. You referenced the 
court decisions that required that potentially. Do you have any 
information about how many have been released, say, over the 
last several years, so that we're including 2014 and 2012, so 
we get an idea of the scope of the problem?
    Mr. Chen. I do not.
    Ms. Lujan Grisham. Do you have any idea how many have been 
released after committing a crime?
    Mr. Chen. I don't.
    Ms. Lujan Grisham. Do you have any idea what types of 
crimes that we are talking about, what they've committed?
    Mr. Chen. Besides what's been mentioned here and what was 
written publicly by the Center for Immigration Studies, I don't 
have any other information. I don't believe the Department of 
Homeland Security or ICE has provided that detailed 
information.
    Ms. Lujan Grisham. And I'm going to just illustrate my 
point one more time.Do you know exactly what the proportion is 
between the undocumented immigrants that DHS is forced to 
release and how many they've released under their own 
prioritization or discretion?
    Mr. Chen. I don't have any numeric data as to the 
proportions that were released either discretionarily with ICE 
having that authority to release or those that were mandated by 
the Zadvydas decision.
    Ms. Lujan Grisham. And so I have more questions than I have 
answers. And that's, I don't think, an appropriate environment 
for the families who have taken the time and had the courage to 
talk to us about the severity of the issues that we have a 
responsibility and this administration has the responsibility 
through Homeland Security to address. And I am encouraging the 
subcommittee and the full committee to ensure that we have the 
opportunity to do that.
    I was the secretary of health in New Mexico from, I hope I 
get this right, 2004 to 2007. And one of the programs that our 
Department of Health in New Mexico was required to carry out 
and oversee is something called the developmentally disability 
community programs, and that means that folks who need 24-hour 
supervision and support, both, are provided that in our State.
    One of the individuals I was providing support and care to 
in that design was an undocumented individual who was also 
developmentally disabled who committed several murders and 
other crimes in New Mexico and Texas. And actually the State in 
that program has no authority and in the Department of Health 
it's the wrong department to provide the right support in this 
situation. And so why would we have this person in our program? 
Because a Federal judge mandated that we do it. And it was a 
very difficult situation. I recognize how difficult the 
situation is. And I recognized it was my responsibility in that 
job to assure the safety of the other families and family 
members, individuals who were in those programs.
    And so I'm expecting that this committee look for a way to 
address these complex issues and to do it in a way that 
protects our families and respects and does something 
meaningful about the tragedies that have already occurred.
    I thank you very much for coming. My condolences again.
    Thank you, Mr. Chairman.
    Mr. Russell. And the chair thanks the gentlelady.
    And the chair now recognizes the gentleman from Georgia, 
Mr. Hice.
    Mr. Hice. Thank you, Mr. Chairman.
    I can't begin to express as others have and I appreciate 
every comment regarding our condolences for the tremendous loss 
that you have experienced and for the courage that you exhibit 
by bringing your stories out into the public for the sole 
purpose of correcting an extremely serious problem that we have 
in our country.
    And, Mr. Ronnebeck, I believe you said it so well when you 
said this is a family's biggest nightmare. I can only imagine. 
And our prayers for each of you.
    Ms. Vaughan, I would like to begin with you. A while ago 
Mr. Chen gave some statistics with great platitudes that would 
try to convince us that all is well when it comes to our 
Federal Government deporting illegal criminals. But as you, 
yourself, pointed out, those stats are flawed at best. There is 
some information from the Weekly Departures and Detention 
Report from ICE from September 2014 in which they said that as 
of September 2014 there were some 166,781 convicted criminal 
aliens who had received final orders of removal and yet for one 
reason or another were not removed. They are to this day still 
at large in the United States.
    In addition to that number was another 174,283 convicted 
criminals who are facing some sort of pending deportation, and 
they now are at large as well in the United States. These 
numbers come up, to my addition, over 341,000 convicted illegal 
aliens in this country at large.
    Is that number roughly correct, Ms. Vaughan?
    Ms. Vaughan. Yes. That number comes directly from ICE's 
statistics and I believe is the exact information from the 
previous question.
    Mr. Hice. The question has got to be, why in the world is 
ICE releasing these convicted criminals?
    Ms. Vaughan. Well, the main reason is because of policies 
in place that the Obama Administration has implemented that 
either exempt large numbers of even convicted criminal aliens 
from immigration enforcement because they are deemed not a 
priority or because ICE officers are told to release them 
pending, ``deportation proceedings that are not going to happen 
for years into the future.''
    And that's the exact case of Altamirano, who killed Grant 
Ronnebeck, is that he was allowed to be released and await 
deportation proceedings rather than held in custody and removed 
in an expeditious manner. Most of these are discretionary 
releases. They're ICE's choice. A few of them are court orders. 
But the vast majority of them are coming about as a result of 
policies, deliberate policies.
    Mr. Hice. OK. You mentioned earlier--and I'm going to 
paraphrase but I jotted down a couple of notes--you mentioned 
something to the effect that illegals face no threat of being 
deported. And you went on to say, in essence, that the Federal 
Government says that they will not tolerate criminal behavior 
by illegal aliens. And yet, in essence, the Federal Government, 
on the other hand, has removed the necessary tools that ICE 
needs to do their job. Is this an accurate assessment of what 
you had Stated?
    Ms. Vaughan. Yes.
    Mr. Hice. OK.
    With that, I would like to, Sheriff, come to you. Again, 
thank you for your service to our country and your commitment 
to keep us safe. You mentioned in your testimony that there's a 
policy vacuum, actually an antipolicy attitude from this 
administration to adhere to the rule of law and to do what 
they're required to do. I'm amazed with the startling ease that 
illegals are able to get driver's license. Can you real quickly 
address that?
    Sheriff Jones. I can. Specific to the driver's license 
issue, there's a couple of issues. If anyone will give you 
honest feedback in any of the States that issue them, and now 
California does as well, they're mostly predicated on forged 
birth certificates or inadequate documentation. They do nothing 
to truly identify any of the folks that are here illegally.
    In California, as a matter of fact, you don't even need any 
government documentation. You can simply go in, meet with a DMV 
representative, and they can, quote/unquote, verify your ID 
through the course of that interview. We had a deputy killed in 
the line of duty several months ago by someone in the country 
illegally. He was in possession of a Utah birth certificate or 
an out-of-State birth certificate and on an alias.
    And none of the DVM information from California and many of 
the States that issue driver's licenses to undocumented 
immigrants share any data with ICE, so there can be no cross-
checking of identification with the folks that have the actual 
identification.
    Mr. Hice. Thank you, sir.
    Mr. Russell. And the gentleman's time has expired.
    And the chair now recognizes the gentleman from 
Massachusetts, Mr. Lynch.
    Mr. Lynch. Thank you.
    Mr. Chen, I was wondering if you could describe a way of 
balancing the concerns that we have with regard to proper 
balancing of due process rights that we grapple with and also 
in each and every case getting to the issue of expeditious 
deportation of those individuals who have been charged with 
crimes. That's the challenge that we have placed on the 
Department of Homeland Security and ICE. And in fairness to 
them, especially with the recent Supreme Court decision, they 
seem to be struggling with that.
    You seem to be someone who has had particular experience in 
this. Is there a bright-line distinction that we could 
introduce that would address the situations that we're 
presented with here today but also would recognize the legal 
reality of what we have to deal with in those cases?
    Mr. Chen. Thank you for the question.
    I don't have a magic bullet solution or proposal that would 
address, certainly not the pain that I think the people who 
have testified here and the loss that they have experienced, to 
fill that loss. The fact is that people who are here who are 
unauthorized, if you've committed a crime or if there's some 
information that indicates that the individual poses a threat 
to the public safety, if ICE has the discretion to release that 
individual ICE is going to look at the facts before it and make 
that determination. I'm not here to testify for the government 
or defend it, but my understanding is that is the analysis that 
ICE officers will use to screen individuals.
    People who are held in detention are made priorities on the 
court docket for removal. Typically they are processed much 
more quickly than people who are released from custody pending 
their immigration court proceedings.
    One thing I should mention is that the immigration courts 
are severely backlogged, and AILA has called for greater 
increases in funding for the immigration courts. But that 
funding has never kept pace, largely due to the fact that 
Congress has been more focused on funding Customs and Border 
Protection and Immigration and Customs Enforcement, and the 
courts just don't have the judges or the personnel to keep up 
with that. And so there are lengthy backlogs. But one way to 
solve it is to make sure the courts are adequately funded so 
that they can process these cases quickly.
    Mr. Lynch. Thank you. I yield back.
    Mr. Russell. The chair thanks the gentleman and now 
recognizes the gentleman from Georgia, Mr. Carter.
    Mr. Carter. Thank you, Mr. Chairman.
    Thank all of you for being here. And, Mr. Shaw and Mr. 
Ronnebeck, my deepest condolences for your loss. I can only 
imagine. And I know it has to have shaken your confidence in 
your government, and I could certainly understand that. And 
then for you to show up today, and thank you for doing that, 
and then we can't even get the Director to show up, that has to 
even be more disappointing. So as far as I can, I apologize. 
I'm sorry. But, nevertheless, thank you again for being here. 
Obviously we've got some real problems, some problems that we 
need to address.
    I want to ask Ms. Vaughan,and if this is an unfair 
question, I apologize, but I feel like you would be the one to 
ask about this. I had the opportunity to go to the southwestern 
border, and that was a great opportunity for me because I had 
never been before. It was educational, enlightening. I learned 
a lot and actually went with an open mind and came back with 
some different ideas from what I had before.
    One of the things that has always concerned me is, what is 
the Mexican Government doing to help us? Are they putting any 
effort into helping us? From what I understand, particularly in 
the children who are coming across, that they're further down 
in Central America, coming from countries further down. And is 
Mexico helping us at all? Is that something that you could 
address?
    Ms. Vaughan. The Mexican Government has not been 
particularly helpful in addressing the surge of illegal alien 
families and juveniles who have been coming. In fact, they've 
made it easier for people to traverse Mexico by informing their 
own immigration authorities that they're to let people who say 
that they're going to the United States pass without harassment 
through Mexico. They consider this to be a problem for the 
United States, not for them. They know that they're just 
passing through.
    Mr. Carter. To your knowledge, has the administration done 
anything to address that?
    Ms. Vaughan. I believe that they issued some public service 
announcements to be broadcast in Central America. I mean,in 
years past when we've had these kind of mass migration crises, 
the government has been very proactive in trying to do joint 
operations and work together with authorities in Mexico to stop 
people before they get near the U.S.-Mexico border. Those were 
very successful in preventing tens of thousands of people from 
arriving on our doorstep and they worked very well, but those 
have not been used at all to my knowledge in this recent 
crisis.
    Mr. Carter. Well, again, back to my trip to the border, 
when we were in the Rio Grande Sector, the Rio Grand Valley 
Sector, and that's where most of the children had come in, in 
the previous spring of last year, we were told to expect even 
more this coming spring. So I think it's going to be even more 
of a problem in the spring than it has been in the past. That's 
discouraging, discouraging news to hear.
    Mr. Jones, I wanted to ask you--and thank you for what you 
do, very important--but I know that the administration has 
changed. They've changed their policy and gone with the 
Priority Enforcement Program. And I just want to ask you the 
effects, if you've seen the effects of that, and exactly what 
have they been.
    Sheriff Jones. I have. And, first of all, having the 
priority, putting people in a Priority 1 necessarily means that 
you're ignoring the rest of folks. But even in that Priority 1 
you can have folks with multiple felony arrests, youths under 
16 with extensive gang activity, misdemeanor convictions, and 
many felony convictions, as long as they aren't considered 
aggravated felonies. None of those things would get you into 
the first priority.
    But secondarily, and as I mentioned in my testimony, the 
detainer system is broken. That necessarily relies on our 
ability to hold folks that are arrested on fresh charges for 
ICE to be able to identify them and come to our jail and take 
custody of them. That is not happening. That's why in-custody 
ICE arrests are down 95 percent.
    There are ways to fix this ICE detainer problem. I mean, I 
figured out a way to solve it with $14 million. And even though 
I'm a doctor of law, as I guess I've now been elevated, as well 
a sheriff, I'm sure there are bright minds in Washington that 
if they had the notion to fix it could come up with equally or 
better ideas to fix it than I can.
    Mr. Carter. Well, please don't stop trying.
    Sheriff Jones. Thank you.
    Mr. Carter. We appreciate your efforts.
    Again, Mr. Shaw and Mr. Ronnebeck, my deepest sympathies, 
and thank you for being here.
    Mr. Chairman, I yield back.
    Mr. Russell. The gentleman yields back.
    And the chair now recognizes the patient lady from 
Michigan, Ms. Lawrence.
    Mrs. Lawrence. Thank you.
    I want to thank everyone that's here today to testify. I do 
appreciate you taking your time.
    Sheriff Jones, I was a previous mayor and have so much 
appreciation for my law enforcement and the service that you 
do.
    I want to be on the record that all lives does matter, and 
it should, all lives should matter. To the families that are 
here today that suffered a loss, my heart goes out to you. 
Being a mayor, I've seen crime and the results of that. So I 
want you to know that that's something that I care very deeply 
about.
    I do want to echo what my colleague just said, we can't 
stop trying. It seems to me, though, that there is an 
underlying misperception of this hearing that the Obama 
Administration solely is not enforcing our immigration laws. 
And I just wanted to share for the record, and, Mr. Chairman, 
please, if you would allow me, I'd like to request that two 
reports from the Migration Policy Institute, a nonpartisan 
think tank in Washington, DC, be entered into the record. I 
have them here. And I would ask that they both be entered into 
the record.
    Mr. Russell. Without objection, that will be the order.
    Mrs. Lawrence. Thank you.
    These reports highlight the levels of detention and 
removals under the Obama Administration. And I want to echo 
again, we can't stop trying. But you cannot dispute the fact 
that the numbers under the Obama Administration has increased.
    I would also like to enter into the record a letter from 
the deputy director of immigration policy at the Migration 
Policy Institute, Marc Rosenbaum, dated today, that further 
clarifies some of the findings of these reports and includes 
some updated statistics regarding this administration's 
enforcement record.
    Mrs. Lawrence. And I just want to quote from this letter. 
Mr. Rosenbaum States the Obama Administration's overall record 
on immigration enforcement is characterized by an unprecedented 
investment of law enforcement resources provided by successive 
Congresses and by the new enforcement policies at the border 
and within the interior, record-setting immigration removals 
that have been increasingly focused over time on high-priority 
targets, failing border appreciation, and most importantly a 
subsidized drop in the size of the U.S. Unauthorized 
population, the first such drop in U.S. History.
    Mr. Chen, I want to ask this question, and this is in the 
spirit of we can't stop trying, we can't ignore what has 
happened, but we can't ignore the progress that we have made as 
well. In your testimony, you highlighted the enforcement 
efforts of the Obama Administration. For example, you indicated 
that in the first 6 years of the Obama Administration DHS 
removed approximately 2.4 million people. Is that correct?
    Mr. Chen. That is correct. And if I may clarify, given some 
of the controversy about these statistics, that is a 
Department-wide statistic that covers all the immigration 
enforcement agencies, including ICE and CBP. The definition of 
removal has not changed during the period that I'm referring 
to. And it has increased substantially over the past decade. 
That increase is not solely attributable to Mr. Obama's 
policies as President, but had begun during President Bush's 
period as well. But those statistics I stand by and are 
accurate.
    Mrs. Lawrence. And from your understanding, is that more or 
less than any other President? You said it was successive. But 
this administration, has it been more or less than any other 
President?
    Mr. Chen. On the number of removals?
    Mrs. Lawrence. Yes.
    Mr. Chen. This administration has removed more in total 
numbers and on average than any previous President.
    Mrs. Lawrence. Can you also explain that detention has 
increased over the years, totaling over 440,000 individuals in 
Fiscal Year 2013. Is that correct?
    Mr. Chen. That is correct. And I'm looking at a chart that 
I can hold up with a graph showing that around Fiscal Year 2001 
to 2003 the number of immigration detentions annually was about 
200,000 per year. And it hasn't grown exactly steadily, but you 
can see it's climbed up to about over 400,000 per year and has 
remained at about that level for the past several years.
    Mrs. Lawrence. Mr. Chairman, I'm closing. I would like to 
emphasize that while many people may have questions about the 
policies of this President's administration related to 
immigration actions, the record, this President's record of 
detention and deportation is clear. And I do agree that we need 
to keep working at it, every life does matter, and that this 
commission, our responsibility is to make sure that we keep 
moving forward. Thank you, sir.
    Mr. Russell. The gentlelady's time has expired.
    And the chair now recognizes the gentleman from Florida, 
Mr. Mica.
    Mr. Mica. Thank you. I've just joined the committee, coming 
from another one. But I have a couple of questions for Scott 
Jones, Sacramento County sheriff. I guess under the Secure 
Communities Program, it was designed to identify each 
undocumented person prior to their release from custody by 
allowing ICE to serve detainers on local jails to hold those 
who were arrested for new crimes and custody for no more than 
48 hours, I believe, if there was a reason to believe they were 
illegally in the country.
    The President's November 20 executive actions, in fact, 
dismantled this action. So how did the Secure Communities 
Program assist in your department's identification of arrested 
individuals? Could you describe it for us?
    Sheriff Jones. I can. Thank you. And the way Secure 
Communities did it is because we had to submit fingerprints to 
ICE. So they were able to identify and take appropriate action, 
whatever appropriate action is for ICE, on every single person 
that was arrested on local charges.
    Now, with their prioritization limitations of the Priority 
Enforcement Program--or Secure Communities Light, as I call 
it--they are much more hampered on what offenses they can take 
action for. But, again, I have to stress that both are 
dependent on the ability for jails to honor detainers or 
requests from ICE to hold those folks so that ICE has enough 
time to get down to the jail to take custody of folks they've 
already identified.
    Mr. Mica. But they're not able to identify----
    Sheriff Jones. They are not.
    Mr. Mica [continuing]. Individuals who are illegally here.
    Sheriff Jones. Because of activism and the Federal 
Government unwilling to challenge contrary decisions or 
assertions, no sheriff in----
    Mr. Mica. So how does this impact you? What are the 
ramifications if they can't identify? What kind of a situation 
does that create for you?
    Sheriff Jones. Well, there's a couple. No. 1 is we don't 
have access to ICE data bases. So our officers on the street 
don't know someone's status or if they're here illegally or 
not, which puts them at grave risk, which is a contributing 
factor to what happened to my officer several months ago that 
got killed. But it also allows criminals to escape consequence 
not only for their criminal offenses, but their offenses for 
being in the country illegally despite perhaps prior removals 
and other prior actions by ICE.
    Mr. Mica. There's also the impact of the Federal 
Government's failure to challenge lawsuits that attempt to 
erode immigration enforcement. What happens in this instance?
    Sheriff Jones. Yes, sir. Like I mentioned in my testimony 
about the Clackamas County, Oregon, decision that invalidated 
ICE detainers as amounting to an unlawful detention without 
probable cause, rather than challenge that assertion, rather 
than intervene in that case during its pendency or challenge 
its assertion afterward, they've simply decided not to be 
involved, remain conspicuously silent, thereby emboldening that 
one single district court opinion to now be exacerbated by the 
ACLU and other advocacy groups, put the rest of the sheriffs in 
this country on notice that they would be sued now based on 
that one court's decision if they were to honor any ICE 
detainer. So as a result many sheriffs in this country no 
longer cooperate with ICE in any way because we've asked and 
they are unwilling, by policy far above their heads, to 
cooperate with us.
    Mr. Mica. So is that what led to your decision not to honor 
any of the ICE detainers for any reason?
    Sheriff Jones. Yes. As a matter of fact, when the TRUST Act 
came out, which limited, not relating to the court decision, 
but limited our ability to do that to, it specified which ICE 
detainers we could honor, my public opinion was that I was not 
going to honor the TRUST Act. I actually came back to 
Washington, spoke with some very high officials in ICE and 
asked them to please stand with me, that I would be willing to 
stand with the Federal Government in the faith of California 
State law. They made it very clear to me that during this 
administration those things would not change, they would not be 
able to stand with me, and I was left no choice. So several 
months after the impact I was forced to comply with our TRUST 
Act and now comply with no ICE detainers because of the 
decision in Oregon that should have no precedential effect on 
us.
    Mr. Mica. Well, Mr. Chairman, the chaos reigns supreme. I'm 
hearing from another jurisdiction, another county. In some of 
my jurisdictions they have law enforcement pick up people, ICE 
isn't able to identify them in a similar manner, and so they're 
just taking to the next jurisdiction and dumping them because 
they don't know what to do. And the cost to incarcerate is 
bankrupting some of our jurisdictions.
    I don't know if you have seen a similar situation, Sheriff.
    Sheriff Jones. Yes, sir. And I will say that myself and 
other law enforcement leaders have really no interest in 
enforcing immigration law. But that does presuppose that there 
are people that are interested in enforcing immigration law, 
that are interested in keeping our communities safe like we 
are, and are interested in identifying, detaining when 
necessary, and removing predator undocumented persons from our 
communities.
    Mr. Mica. Thank you. Yield back.
    Mr. Russell. And the gentleman's time has expired.
    And we'll now recognize Mr. Cartwright for a unanimous 
consent request.
    Mr. Cartwright. Thank you, Mr. Chairman. At this time I 
would like to enter into the record a May 2013 report, apropos 
of many of your comments, Sheriff Jones, and thank you for your 
testimony. This is from the University of Illinois at Chicago. 
It's titled ``The Insecure Communities.'' It highlights some 
crucial facts about police involvement in immigration 
enforcement. It found that 45 percent of Latinos surveyed were 
less likely to report a crime because they were afraid local 
police are going to ask them or people they know about their 
immigration status. That's a unanimous consent request.
    Mr. Russell. Without objection, that will be the order.
    Mr. Russell. I would like to thank our witnesses that have 
taken the time to come today. It's very important what you all 
do, even if we might have even political differences. I think 
in many cases the record-high numbers of apprehensions can also 
be commensurate with the fact that we have record-high numbers 
of illegal entrants. And there is a correlation, and it's 
worthy of noting that.
    In fact, it's important that even today one of our 
witnesses, Ms. Vaughan, has Stated that even the detention bed 
issue, with 34,000 spaces available for those that could be 
awaiting deportation, only 27,000 on a daily basis have been 
used since this fiscal year. So we do see a lot more effort 
could be exerted, and we hope that that will be conveyed and 
taken back.
    And I can't thank enough Mr. Shaw, Mr. Ronnebeck.We really 
cannot even imagine. But we can imagine the constitutional 
requirement that we have to uphold life, liberty, and property 
of all Americans. You deserve that. Thank you for your efforts.
    And thank you, Mr. Jones, for your continued efforts, and 
all of the witnesses, Mr. Chen, for the dedicated work that you 
do every day,Ms. Vaughan, a Rolodex of information, and thank 
you so much for all that you do.
    If there is no further business, without objection, the 
committee will stand adjourned.
    [Whereupon, at 12:07 p.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
